      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 9, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Child Delivery Claims and Newborn Claims Included in the
               Kansas Medicaid Family Planning Program (A-07-10-04156)


Attached, for your information, is an advance copy of our final report on child delivery claims
and newborn claims included in the Kansas Medicaid family planning program. We will issue
this report to the Kansas Health Policy Authority within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov, or your staff may contact
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-10-04156.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

May 12, 2011

Report Number: A-07-10-04156

Andrew Allison, Ph.D.
Executive Director
Kansas Health Policy Authority
Room 900-N Landon State Office Building
Topeka, KS 66612

Dear Dr. Allison:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Child Delivery Claims and Newborn Claims
Included in the Kansas Medicaid Family Planning Program. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04156 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Andrew Allison, Ph.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        REVIEW OF
CHILD DELIVERY CLAIMS AND
    NEWBORN CLAIMS
     INCLUDED IN THE
    KANSAS MEDICAID
 FAMILY PLANNING PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-07-10-04156
                        Office of Inspector General
                                          http://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Kansas, the Kansas Health Policy Authority
(the State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP rate ranged from 59.43 percent to 68.31 percent for
claims paid from July 1, 2005, through June 30, 2009.

Federal requirements also make provisions for various specified services to be reimbursed at
higher rates of FFP. Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize
reimbursement at an enhanced 90-percent FFP rate (90-percent FFP rate) for family planning
services. Section 4270 of the CMS State Medicaid Manual (the manual) describes family
planning services as those that prevent or delay pregnancy or otherwise control family size and
may also include infertility treatments. Pursuant to the provisions of the manual, only items and
procedures clearly furnished or provided for family planning purposes may be claimed at the
90-percent FFP rate.

CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency via
Medicaid State Operations Letter 91-9, dated January 30, 1991. The guide states that any
procedure provided to a woman known to be pregnant may not be considered a family planning
service reimbursable at the 90-percent FFP rate.

For State fiscal years 2006 through 2009, the State agency was reimbursed $19,997,233
($17,997,509 Federal share) for a variety of family planning services at the 90-percent FFP rate.
Of this amount, we separately reviewed certain family planning costs totaling $9,600,196
($8,640,176 Federal share) for specifically identified family planning pharmacy claims
(A-07-10-04157), family planning sterilization services (A-07-10-04162), and selected other
family planning claims (A-07-09-04146). This review covers the remaining $10,397,037
($9,357,333 Federal share) for 2,781 child delivery claims and newborn claims, for which the
State agency claimed reimbursement at the family planning 90-percent FFP rate.

OBJECTIVE

Our objective was to determine whether the child delivery and newborn claims submitted by
providers and claimed by the State agency at the 90-percent FFP rate from July 1, 2005, through
June 30, 2009, qualified as family planning services pursuant to Federal requirements.

                                                i
SUMMARY OF FINDINGS

None of the family planning child delivery and newborn claims submitted by providers and
claimed by the State agency at the 90-percent FFP rate from July 1, 2005, through
June 30, 2009, qualified as family planning services pursuant to Federal requirements. However,
for some claims, a portion of the claim qualified as an allowable family planning service.

Based on our review of a discovery sample of 30 claims and our review of all of the procedure
and diagnosis codes, we determined that all 2,781 child delivery claims and newborn claims
were erroneously claimed for 90-percent FFP and that the State agency received $2,447,414 in
unallowable Federal reimbursement. The $2,447,414 represents the difference between the
amount that the State agency claimed at the 90-percent FFP rate and the amount that should have
been claimed at the standard FMAP rate pursuant to Federal requirements.

These errors occurred because the Medicaid Management Information System’s (MMIS) edits
did not always correctly identify claims for reimbursement at the 90-percent FFP rate. Also, a
lack of oversight by the State agency allowed these claims to be reimbursed as family planning
services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,447,414 to the Federal Government;

   •   determine the amount of Federal Medicaid funds that were improperly reimbursed at the
       90-percent FFP rate for child delivery and newborn services because they did not qualify
       as family planning services, both before and after our audit period, and refund that
       amount to the Federal Government; and

   •   ensure that MMIS edits appropriately identify claims that are ineligible for
       reimbursement at the 90-percent FFP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not agree with our finding related
to the 2,781 child delivery and newborn claims or our recommendation to refund $3,045,450. It
also described an additional review that it conducted to determine the portion of claims reviewed
and related to sterilization. It stated that using this method resulted in a Federal refund of
$2,009,826.

With respect to our findings, the State agency said that all of the 2,781 claims included “… valid,
CMS defined, family planning procedure codes, reimbursable at the 90-percent FFP rate. The
claims primarily include sterilizations performed after the delivery of a child ….” The State
agency added that “[p]erforming a sterilization procedure directly following the birth is very


                                                ii
common and is much more efficient than scheduling a separate, return procedure to perform the
sterilization.”

The State agency did not address our second recommendation. With respect to our third
recommendation, the State agency described corrective action that it implemented to ensure that
MMIS edits assist in correctly apportioning funding for family planning services.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that portions of some child delivery and newborn claims contained sterilization
procedures, which are allowable family planning services. After reviewing the State agency’s
method of calculating child delivery and newborn claims, we revised our calculations and
reduced the amount of our questioned costs, and the associated recommended refund amount,
from $3,045,450 to $2,447,414.

The State agency’s comments suggested that we were recommending that the State agency
require hospitals to schedule separate, return procedures to perform sterilizations. In fact, we are
not recommending that the State agency require hospitals to perform sterilization procedures
separate from child delivery services. Our finding states, more narrowly, that the State agency is
not entitled to Federal reimbursement at the 90-percent FFP rate for child delivery and newborn
services.

Our finding is consistent with U.S. Department of Health & Human Services Departmental
Appeals Board (the Board) Decision No. 1284, dated December 17, 1991, which dealt with a
similar set of circumstances. The Board upheld a disallowance based on an Office of Inspector
General audit finding that the New York State Department of Social Services (New York) had
claimed both childbirth and sterilization services provided during the same hospital stay at the
90-percent FFP rate. New York asserted that in cases in which family planning was the primary
procedure, the entire claim should be claimed at the 90-percent FFP rate. The Board ruled that
New York “… did not show any reasonable basis for allocating the hospital stays and ancillary
costs entirely to family planning in the sterilization and delivery claims” and upheld the related
disallowance.

Regarding our second recommendation, we continue to advise that the State agency review
claims outside of our audit period for similar errors.




                                                 iii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Kansas Medicaid Program ............................................................................... 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Office of Inspector General Audits of
             Kansas Medicaid Family Planning Services ................................................. 2
            Medicaid Management Information System .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

      UNALLOWABLE FAMILY PLANNING SERVICES ................................................. 5

      CAUSES OF THE OVERPAYMENTS .......................................................................... 6

      RECOMMENDATIONS ................................................................................................. 6

      STATE AGENCY COMMENTS .................................................................................... 6

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7

APPENDIXES

      A: UNALLOWABLE REIMBURSEMENT

      B: STATE AGENCY COMMENTS




                                                                   iv
                                    INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

Kansas Medicaid Program

In Kansas, the Kansas Health Policy Authority (the State agency) is responsible for
administering the Medicaid program. The State agency contracts with a fiscal agent, HP
Enterprise Services (formerly Electronic Data Systems), to maintain its Medicaid
Management Information System (MMIS), a computerized payment and information
reporting system that processes and pays Medicaid claims.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as either Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative
per capita income. The State agency’s FMAP rate ranged from 59.43 percent to 68.31 percent
for claims paid from July 1, 2005, through June 30, 2009. Federal requirements also make
provisions for various specified services to be reimbursed at higher rates of FFP.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish “… family planning services and
supplies … to individuals of child-bearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies ….” Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize
reimbursement at an enhanced 90-percent FFP rate (90-percent FFP rate) for family planning
services.

Section 4270 of the CMS State Medicaid Manual (the manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and
may also include infertility treatments. This provision of the manual generally permits
reimbursement at a 90-percent FFP rate for certain services and items, to include counseling
services and patient education; examination and treatment by medical professionals pursuant
to States’ requirements; devices to prevent conception; and infertility services, including
sterilization reversals. Pursuant to the provisions of the manual, only items and procedures
clearly furnished or provided for family planning purposes may be claimed at the 90-percent
FFP rate.

                                               1
CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency
via Medicaid State Operations Letter 91-9, dated January 30, 1991. 1 Section IV, E of the
guide states that any procedure provided to a woman known to be pregnant may not be
considered a family planning service reimbursable at the 90-percent FFP rate.

The State agency administers family planning services through the Kansas Medicaid Family
Planning Program. The State Professional Provider Manual defines family planning services
as any medically approved treatment, counseling, drugs, supplies, or devices that are
prescribed or furnished by a provider to individuals of childbearing age so those individuals
can freely determine the number and spacing of their children.

Office of Inspector General Audits of
Kansas Medicaid Family Planning Services

For State fiscal years 2006 through 2009, the State agency was reimbursed $19,997,233
($17,997,509 Federal share) for a variety of family planning services at the 90-percent FFP
rate. Of this amount, we separately reviewed certain family planning costs totaling
$9,600,196 ($8,640,176 Federal share) for specifically identified family planning pharmacy
claims (A-07-10-04157), family planning sterilization services (A-07-10-04162), and selected
other family planning claims (A-07-09-04146). This review covers the remaining
$10,397,037 ($9,357,333 Federal share) for 2,781 child delivery claims and newborn claims,
for which the State agency claimed reimbursement at the family planning 90-percent FFP rate.

Medicaid Management Information System

Providers enrolled in the Medicaid program submit claims for payment to the State agency’s
MMIS, which is maintained by the State agency’s fiscal agent. The State agency furnishes to
providers an MMIS provider manual that contains instructions for the proper completion and
submission of claims. The provider must complete certain fields on the electronic claim form
to indicate the type of service provided.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the child delivery and newborn claims submitted by
providers and claimed by the State agency at the 90-percent FFP rate from July 1, 2005,
through June 30, 2009, qualified as family planning services pursuant to Federal
requirements.

Scope

We reviewed $10,397,037 ($9,357,333 Federal share) that the State agency claimed for family
planning services associated with child delivery procedures and newborn procedures in
Kansas from July 1, 2005, through June 30, 2009. We did not review the overall internal
1
    This same provision appeared in the 1993, 1997, and 2002 updates to this document.

                                                          2
control structure of the State agency or the Medicaid program. Rather, we reviewed only the
internal controls that pertained directly to our objective.

We performed fieldwork at the State agency’s offices in Topeka, Kansas, from July 2009
through February 2010.

Methodology

To accomplish our objective, we:

      •    reviewed Federal laws, regulations, and guidance and the State plan;

      •    held discussions with CMS officials and acquired an understanding of CMS
           requirements and guidance furnished to State agency officials concerning Medicaid
           family planning claims;

      •    held discussions with State agency officials to gain an understanding of State agency
           policies, procedures, and guidance for claiming Medicaid reimbursement for family
           planning services;

      •    reconciled current-period and prior-period family planning claims reported on the
           standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
           Medical Assistance Program (CMS-64 report), 2 to the State agency’s supporting
           documentation;

      •    obtained from the State agency’s fiscal agent a database of paid claims for the Kansas
           Medicaid Family Planning Program that were submitted from July 1, 2005, through
           June 30, 2009, and that contained 211,496 claim lines totaling $19,993,630;

      •    identified the procedure codes and diagnosis codes that related to child delivery and
           newborn services and reviewed the procedure codes to verify that these claims were
           for child delivery services and newborn services;

      •    extracted 3,633 inpatient services that specifically related to the provision of child
           delivery services and newborn services, grouped these inpatient services in a separate
           database, and eliminated 156 zero-paid claims and 218 voided claims, resulting in
           3,259 inpatient services, which constituted 2,781 3 inpatient claims totaling
           $10,397,037 ($9,357,333 Federal share);



2
    The State agency uses the CMS-64 report to report Medicaid expenditures for Federal reimbursement.
3
  Each claim submitted for reimbursement included charge information for all services provided; thus, some
individual claims had more than one inpatient service associated with them. The detailed charge information for
each service provided was listed on a separate line within that particular claim. Accordingly, the number of
services provided (3,259) relates to the number of lines associated with the 2,781 claims we reviewed.

                                                          3
   •   reviewed the procedure codes and diagnosis codes of the 2,781 claims to determine
       whether these claims were for child delivery and newborn services;

   •   reviewed the costs associated with the portion of the 2,781 claims that related to an
       allowable family planning service;

   •   used simple random sampling to select a discovery sample of 30 claims from the
       sample frame of 2,781 claims;

   •   obtained the medical records from the performing providers for the 30 sampled claims
       and compared the records to the procedure codes to verify that the documentation was
       consistent with the procedure codes; and

   •   shared a schedule of the 2,781 inpatient claims and the results of our discovery sample
       of 30 claims with the State agency and solicited its comments.

To calculate the unallowable amount of FFP, we computed the difference between the family
planning 90-percent FFP rate and the FMAP rate for each claim.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                        FINDINGS AND RECOMMENDATIONS

None of the family planning child delivery and newborn claims submitted by providers and
claimed by the State agency at the 90-percent FFP rate from July 1, 2005, through
June 30, 2009, qualified as family planning services pursuant to Federal requirements.
However, for some claims, a portion of the claim qualified as an allowable family planning
service.

Based on our review of a discovery sample of 30 claims and our review of all of the procedure
and diagnosis codes, we determined that all 2,781 child delivery claims and newborn claims
were erroneously claimed for 90-percent FFP and that the State agency received $2,447,414
in unallowable Federal reimbursement. The $2,447,414 represents the difference between the
amount that the State agency claimed at the 90-percent FFP rate and the amount that should
have been claimed at the standard FMAP rate pursuant to Federal requirements.

These errors occurred because the MMIS’s edits did not always correctly identify claims for
reimbursement at the 90-percent FFP rate. Also, a lack of oversight by the State agency
allowed these claims to be reimbursed as family planning services.




                                                4
UNALLOWABLE FAMILY PLANNING SERVICES

Section 4270 of the manual states that family planning services include those that prevent or
delay pregnancy or otherwise control family size and may include infertility treatments. The
manual states that only items and procedures clearly furnished or provided for family
planning purposes may be claimed at the 90-percent FFP rate.

In addition, the guide, part (IV)(E), states that “[b]y definition, any procedure provided to a
woman who is known to be pregnant cannot be considered a family planning service
reimbursable at 90-percent FFP.”

Further, the U.S. Department of Health & Human Services Departmental Appeals Board (the
Board) has ruled that in cases involving claims that include both child delivery and newborn
procedures and family planning procedures, it is unreasonable to assign “… hospital stays and
ancillary costs entirely to family planning in the sterilization and delivery claims.” 4

We determined that the 2,781 child delivery claims and newborn claims, totaling $10,397,037
($9,357,333 Federal share) that were submitted by providers and claimed by the State agency
at the family planning 90-percent FFP rate from July 1, 2005, through June 30, 2009, included
procedures that did not qualify as family planning services pursuant to Federal requirements.
Specifically, each of the 30 claims in our discovery sample included child delivery and
newborn procedures. (For example, one of the claims had surgical and admit diagnosis codes
for child delivery, and the medical record clearly showed that the individual had delivered a
baby.) Although the individuals had undergone sterilization procedures following child
delivery, the State agency claimed the sterilization procedures as well as the child delivery
and newborn procedures at the 90-percent FFP rate. The child delivery and newborn
procedures did not qualify as family planning services and were therefore not eligible for
Federal reimbursement at the 90-percent FFP rate.

Of the $10,397,037 ($9,357,333 Federal share) in claims identified, $3,759,457 ($3,383,511
Federal share) included no allowable family planning procedures; this amount therefore did
not qualify for reimbursement at the 90-percent FFP rate. However, the remaining
$6,637,580 ($5,973,822 Federal share) related to claims that included both unallowable child
delivery and newborn procedures and allowable family planning procedures. For these
claims, we used an alternative methodology provided (after our fieldwork) by the State
agency to calculate the portion of each claim that could be related to unallowable child
delivery and newborn procedures and the portion that could be related to an allowable family
planning procedure. A more detailed depiction of our methodology for calculating all of these
questioned costs appears as Appendix A.

For both the claims that did not include any allowable family planning procedures and the
claims that included both unallowable child delivery and newborn procedures and allowable
family planning procedures, the portion of the claims with unallowable family planning
procedures could, however, be claimed for reimbursement at the standard FMAP rate that was
applicable at the time each claim was paid. We calculated the correct Federal reimbursement
4
    New York State Department of Social Services, DAB No. 1284 (1991).

                                                       5
using the standard FMAP rates and determined that the State agency received $2,447,414 in
unallowable Federal reimbursement.

CAUSES OF THE OVERPAYMENTS

The MMIS used a variety of indicators on the electronic claim form to identify family
planning services that were eligible for reimbursement at the 90-percent FFP rate. In addition,
the State agency’s MMIS included edits to verify that the provider correctly selected the
appropriate indicator. If these edits revealed that the provider had selected a family planning
indicator for services unrelated to family planning services, the claim was returned to the
provider for correction and resubmission. If the MMIS edit verified that the provider had
correctly selected the appropriate indicator, those services were reported to CMS for the
appropriate amount of Federal reimbursement.

The MMIS’s edits did not always correctly identify claims for reimbursement at the
90-percent FFP rate. Specifically, the MMIS’s edits were not sufficient to correctly identify
unallowable child delivery and newborn procedures that were associated with claims that
included some allowable family planning services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,447,414 to the Federal Government;

   •   determine the amount of Federal Medicaid funds that were improperly reimbursed at
       the 90-percent FFP rate for child delivery and newborn services because they did not
       qualify as family planning services, both before and after our audit period, and refund
       that amount to the Federal Government; and

   •   ensure that MMIS edits appropriately identify claims that are ineligible for
       reimbursement at the 90-percent FFP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not agree with our finding
related to the 2,781 child delivery and newborn claims or our recommendation to refund
$3,045,450. It also described an additional review that it conducted to determine the portion
of claims reviewed and related to sterilization. It stated that using this method resulted in a
Federal refund of $2,009,826.

With respect to our findings, the State agency said that all of the 2,781 claims included
“… valid, CMS defined, family planning procedure codes, reimbursable at the 90-percent FFP
rate. The claims primarily include sterilizations performed after the delivery of a child ….”




                                                 6
The State agency added:

       [p]erforming a sterilization procedure directly following the birth is very
       common and is much more efficient than scheduling a separate, return
       procedure to perform the sterilization. If the State must require hospitals to
       perform a separate, return procedure for sterilization in order for the Medicaid
       Program to receive the 90% match, this would drive costs higher for the
       healthcare providers and the Program.

The State agency did not address our second recommendation. With respect to our third
recommendation, the State agency described corrective action that it implemented to ensure
that MMIS edits assist in correctly apportioning funding for family planning services.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that portions of some child delivery and newborn claims contained sterilization
procedures, which are allowable family planning services. After reviewing the State agency’s
method of calculating child delivery and newborn claims, we revised our calculations and
reduced the amount of our questioned costs from $3,045,450 to $2,447,414.

The State agency’s alternative method assumed that all claims that we questioned included an
allowable family planning procedure. However, we determined that of the $10,397,037
($9,357,333 Federal share) in claims reviewed, $3,759,457 ($3,381,511 Federal share)
included no allowable family planning procedures and that the remaining $6,637,580
($5,973,822 Federal share) related to claims that included both unallowable child delivery and
newborn procedures and allowable family planning procedures. We revised our calculations
based on information that the State agency provided in its written comments and in
subsequent discussions, determined that the recommended refund amount should be
$2,447,414, and modified our finding and associated recommendation accordingly.

The State agency’s comments suggested that we were recommending that the State agency
require hospitals to schedule separate, return procedures to perform sterilizations. In fact, we
are not recommending that the State agency require hospitals to perform sterilization
procedures separate from child delivery services. Our finding states, more narrowly, that the
State agency is not entitled to Federal reimbursement at the 90-percent FFP rate for child
delivery and newborn services, even when child delivery services and sterilization procedures
are provided during the same hospital stay.

Our finding is consistent with the Board’s Decision No. 1284, which dealt with a similar set
of circumstances. The Board upheld a disallowance based on an Office of Inspector General
audit finding that the New York State Department of Social Services (New York) had claimed
both childbirth and sterilization services provided during the same hospital stay at the
90-percent FFP rate. New York asserted that in cases in which family planning was the
primary procedure, the entire claim should be claimed at the 90-percent FFP rate. The Board

                                                 7
ruled that New York “… did not show any reasonable basis for allocating the hospital stays
and ancillary costs entirely to family planning in the sterilization and delivery claims” and
upheld the related disallowance.

Regarding our second recommendation, we continue to advise that the State agency review
claims outside of our audit period for similar errors. In particular, the State agency should
review claims that were submitted until the time that it implemented its revised policy to
ensure that MMIS edits assist in correctly apportioning funding for family planning services.




                                                8
APPENDIXES
                        APPENDIX A: UNALLOWABLE REIMBURSEMENT

                      DELIVERY/NEWBORN CLAIMS CONTAINING STERILIZATION
                                 PROCEDURE/DIAGNOSIS CODES

                                                                     Portion of Claim
                                                                      Not Assoc w/
       CMS 1 Report            FMAP 2              Total             Family Planning      (C × 90%)
         Period                                                         Services 3       minus (C × A)
                                  A                  B                      C                 D
    9/30/05                    61.01%             $196,142               $135,337           $39,234
    9/30/06                    60.41%            3,044,708              2,100,849           621,641
    9/30/07                    60.25%            1,583,616              1,092,695           325,077
    9/30/08                    59.43%            1,097,062                756,973           231,407
    QE 4: 12/08 & 03/09        66.28%              458,466                316,342            75,036
    QE: 6/30/2009              68.31%              257,586                177,734            38,551
            Total                               $6,637,580             $4,579,930        $1,330,946



     DELIVERY/NEWBORN CLAIMS NOT CONTAINING STERILIZATIONS
                  PROCEDURE/DIAGNOSIS CODES

       CMS Report              FMAP                    Total                              (B × 90%)
         Period                                                                          minus (B × A)
                                  A                        B                                    C
    9/30/05                    61.01%                           $0                                $0
    9/30/06                    60.41%                1,510,416                               446,932
    9/30/07                    60.25%                2,256,362                               671,268
    9/30/08                    59.43%                   (1,981)                                 (605)
    QE: 12/08 & 3/09           66.28%                      1,597                                 379
    QE: 6/30/2009              68.31%                   (6,937)                               (1,505)
              Total                                 $3,759,457                            $1,116,468


    Total Unallowable Claims                        $10,397,037                           $2,447,414 5


1
    Centers for Medicare & Medicaid Services.
2
    Federal medical assistance percentage.
3
    Based on procedure codes 6621, 6622, 6624, 6629, 6631, 6632, 6639, and 9924, and diagnosis code V252.
    Per the alternative methodology provided by the State agency (after our fieldwork), these procedure codes, on
    average, account for 31percent of a claim that contains both family planning services and non-family-
    planning services. Therefore, to determine the portion of the claim that was not associated with family
    planning services, we took the total combined claim times 69 percent (100 percent less 31 percent).
4
    Quarter ended.
5
    Differences in totals in this column are due to rounding.
                                                                                                                  PagelofS


                    APPENDIX B: STATE AGENCY COMMENTS 





                             KANSAS HEALTH POLICY AUTHORITY


                                                      October 1, 2010


Mr. Patrick Cogley
Regionallnsr;ctor General
601 East 121 Street
Room 0429
Kansas City, Missouri 64106

RE: Office of Inspector General (OIG) Draft Audit Report Number A-07-10-04156

Dear Mr. Cogley:

The Kansas Health Policy Authority (KH PA) has reviewed the draft report entitled Review
of Child Delivery Claims and Newborn Claims Included in the Kansas Medicaid Family
Planning Program. The OIG's review determined that 2,781 claims were erroneously
claimed at the gO-percent FFP and the State of Kansas received $3,045,450 in
unallowable Federal reimbursement. The report included the following three
recommendations:

                      • 	 Refund $3,045,450 to the federal Government;

                      • 	 Detennine the amount of Federal Medicaid funds that were improperly
                          reimbursement at the enhanced 90-percent FFP rate for child delivery
                          and newborn services because they did not qualify as family planning
                          services, both before and after our audit period, and refund that amount
                          to the Federal Government; and

                      • 	 Ensure that MMIS edits appropriately identify claims that are ineligible
                          for reimbursement at the 90-percent FFP rate.

The Kansas Health Policy Authority has perionned a detailed review of the report and the
related claims. We disagree with the report findings for the following reasons.



                              Rm. 900 _N. LlUloonBuilcing 900 SW h chmStr .. t.   T~.h.   KS 66612_1220
                                                       www.klma.ks.gov

M.c)c '; dlltldH ..1thW.yo                                 Stat . Fmplw" H.!.I th Plw
lumppc. Fug:J
Phone       785_2 96 _3981                                 prune      785_368-6361                        prune
            785_296_2364 

            785_296_4813                                              785_368_7180 

            785_296_6995 

                                                                                            Page 2 of 5




Mr. Patrick Cogley
October 1 , 2010


St erilization procedures were not performed on pregnant wom en

The first finding indicates that $3,045,450 is unallowable Federal reimbursement thai
must be refunded to the Federal government because the hospitals performed
sterilization procedures on pregnant women and family planning services cannot be
performed on pregnant women. There is no basis for this finding. The sterilizailon
procedures were performed following the birth , whe n the women were no longer
pregnant. More than 30% of the claim payments relate to sterilization procedures that
were performed after the delivery of a child. Because the sterilization procedures were
performed on non-pregnant women , the portion of the claims related to family planning
services is reimbursable at the 9O-percent FFP rate .

All of the 2,781 c l aims reviewe d by th e D IG i ncl ude a Famil y Planning p rocedu re

An examination of the list of the 2,781 claims retrieved by the DIG reveals that all of the
claims in the list include valid , CMS defined , family planning procedure codes,
reimbursable at the 9O-percent FFP rate. The claims primarily include sterilizations
performed after the delivery of a child , with the predominant codes present being 6632 or
6639. Both codes are for bilateral ligation and division of fallopian tubes. Sterilizations
were performed to prevent future pregnancies and the services clearly meet the criteria
for reimbursement at the 90% match.

Federal policy encourages liberal coverage of family planning services through an
enhanced match rate. Sterilization services are an appropriate method that preve nts
pregnancy and controls family size which is allowed by, Section 4270 of the CMS "State
Medica id Manual".

ICD-9 Descriptions for sterilization codes in claims set:

6632-0ther bilatera l ligation and division of fallopian tubes

6639-0ther bilateral destruction or occlusion of fallopian tubes

863-0ther local excision or destruction of lesion or tissue of skin and subcutaneous
tissue

9924-lnjection of other hormone

The KHPA re viewed a random sample of 30 of the 2,781 claims. One hundred percent of
the claims reviewed in the sample include a family planning service . The review found
that 27 of the 30 inpatient claims had either ICD-9 code 6632, other bilateral ligation and
division of fallopian tubes, or code 6639, other bilateral destruction or occlusion of




                                                                                            2
                                                                                           Page 3 of5




Mr. Patrick Cogley
October 1 , 2010


fallopian lubes. Both of these codes are reimbursable at the 9O-percent rate . Three of
the 30 claims include ICD-9 code, 9924 , injection of other hormone , which is also for
preventing future pregnancy.

A separately scheduled sterilization procedure wou ld unnecessarily increase costs

Performing a sterilization procedure directly following the birth is very common and is
much more efficient than scheduling a separate , return procedure to perform the
sterilization. If the State must require hospitals to perform a separate , return procedure
for sterilization in order for the Medicaid Program to receive the 90% match , this would
drive costs higher for the healthcare providers and the Program . This wou ld also result in
the performance of fewer sterilizations, resulting in increased pregnancies, which is not
the intent of 90% coverage for Family Planning services. The State and healthcare
providers should not be penalized by disallowance because the method of service
delivery was a cost effective approach for performing the sterilization procedure . Family
Planning services are present within the claims retrieved by the OIG and should be
reimbursed at the 90% match, consistent with the intent of Federal policy .

Method for determining family planning reimbursement

Through the Kansas Medicaid inpatient rate setting process, hospital costs related to
sterilizations are "costed" , or buill into the Medicaid peer group rates. This is performed
by multiplying each hospital's ancillary charge for the sterilization procedure times the
hospital-specific cost-to-charge ratio for the Operating Room cost center (where the costs
were and incurred and the services were provided). Medicaid billed charges are mapped
to the appropriate cost centers through this cost-finding process. Other charges related
to the performance of the sterilization procedure may include anestheSia , lab charges,
and other incidental ancillary charges.

Cost-to-charge ratios, for each hospital , are obtained from the hospital Medicare cost
reports. Calculated Medicaid ancillary and routine service costs are summed fo r all
hospitals to determine the overall average cost-per-discharge for each specific DRG.
The DRG-specific cost-per-discharge is then divided by the overall average cost per­
discharge, for all hospitals, for determining the DRG relative weights. The calculated
weights reflect utilization of resources related to the services provided . A higher DRG
weight reflects higher case acuity.

For determining the Medicaid payment, the calculated DRG weight is multiplied by the
per-discharge peer group rate. The ancillary service charges for sterilizations are a drive r
for a portion of the Medicaid payment that is calculated using the DRG weight.
Sterilization costs are averaged into the Medicaid reimbursement amount, which is
generated by referencing the DRG weight.




                                                                                           3
                                                                                               Page40f S




Mr. Patrick Cogley
October 1 , 2010




Sterilization reimbursement is present for a claim when a sterilization procedure code is
present. Because sterilization costs are included in the reimbursement for the claim, the
agency determined the portion of the claim costs related to fam ily planning using a
method for carving out the costs for sterilizations based on the billed charges related to
the sterilization procedures divided by the tolal ancillary billed charges for the claims in
the sample . The percentage of services related to family planning within the birth DRGs
is 32 .13%. The portion of the claim cost of $1 0,397 ,288 related to family planning is
$3,341 ,104 (all-funds). The portion of this amount a190% is $3 ,006,994.

In addition to a review of specific Family Planning costs using a random sample, we also
performed a separate review, for comparative purposes, using an alternative method.
The payment for MSDRG 775 (CMS DRG 373), Vaginal Delivery without a Complicating
Diagnosis was compared to MSDRG 767 (CMS DRG 374), Vaginal Delivery w ith
Sterilization. This method compared the relative DRG weight values for each DRG , the
difference representing the portion of the DRG weight related to the cost of the
sterilization. The DRG weight difference was then multiplied by the Peer Group rate for
determination of the portion of the claim payment related to the Sterilization procedure .

Based on this alternative rev iew, we found that the sterilization procedure makes up
approximately 34.01 % of the payment for a birth with a sterilization procedure.
Multiplying 34.01 % times the all funds claims amount of $1 0 ,397,288 results in
sterilization payment, relative to the claims, of $3,535,706. This amount is about
$194,602 more than the method that calculates the reimbursement amount based on a
random sample of 30 claims. In summary , both methods resulted in Similar results.

The resulting Federal refund it $2,009,826 .

Corrections to System Edits

The agency is working to apportion Family Planning funding correctly. The agency
implemented a policy for correcting the Family Planning claiming process w ithin the
system . This policy explicitly defines a finite set of diagnosis code and procedure code
combinations that allow a (non-pharmacy) claim to be processed with the enhanced
family planning FFP rate . The methodology ensures that claims that do not have the
required diagnosis and procedure code combination win pay at the standard FFP rate .
All cla ims are considered ineligible for the enhanced FFP rate by default unless the
correct combination of diagnosis and procedure code is present on the claim . The
agency believes that this change meets the intent of the recommendation to ensure that
MMIS edits appropriately identify claims not eligible fo r enhanced FFP.

For inpatient claims, the MMIS the logic looks for specific birth related MSDRGs. Within




                                                                                               4
                                                                                               Page 5 of5




Mr. Patrick Cogley
October 1, 2010


these birth related MSDRGs, the system then looks for the family planning procedure
codes 6632, 6639 and 4 other valid family planning procedure codes. The count of
identified sterilizations is multiplied by the reimbursement per sterilization procedure for
determining the appropriate reclassification to the 90% match.

Thank you for the opportunity 10 respond to this draft audit report.


                                           Sincerely,




                                           Andrew Allison, PhD
                                           Executive Director




                                                                                               5

